       Office of Inspector General
       Audit Report


                 WATER


Missouri’s Water Quality Standards and Monitoring


        Report No. E1HWF7-07-0023-8100080


                  March 31, 1998
Inspector General Division   Central Audit Division
 Conducting the Audit:       Kansas City, Kansas


Region Covered:              Region 7


Program Office Involved:     Water, Wetlands, and Pesticides Division
                                          March 31, 1998


MEMORANDUM

SUBJECT:       Missouri’s Water Quality Standards and Monitoring
               Audit Report E1HWF7-07-0023-8100080

FROM:          Bennie S. Salem
               Divisional Inspector General

TO:            Dennis Grams
               Regional Administrator
               Region 7

         Attached is our report entitled Missouri’s Water Quality Standards and Monitoring. The
report includes recommendations that Region 7 require Missouri to adopt the “swimmable” use
classification, where it can be achieved, and adopt Environmental Protection Agency (EPA) or
scientifically defensible criteria. Missouri needs to develop a monitoring strategy and
management plans to comprehensively assess the quality of its waters. In addition, Missouri
should ensure its water quality reports are complete and accurate. We discussed our findings with
your staff and issued a draft report. We summarized your comments in the final report and
included your complete response in Appendix I. Missouri concurred with our recommendations,
but did not provide a written response in time to be included in this report.

ACTION REQUIRED

         In accordance with EPA Order 2750, you, as the action official, are required to provide
this office a written response to the audit report within 90 days of the final audit report date. For
corrective actions planned but not completed by the response date, reference to specific milestone
dates will assist in deciding whether to close this report.

        We appreciate the cooperation your staff provided throughout the audit. We especially
appreciate the program staff's assistance and timely response during the audit. The staff exhibited
a genuine interest in working with us to improve the water quality program. The staff recognized
from the beginning that this audit would provide the basis for similar audits of other states, and
worked closely with us to ensure we had a comprehensive understanding of Region 7's water
quality program. The staff's efforts helped add value to this audit and to our planned national
program audits.
        This audit report contains findings that the Office of Inspector General (OIG) has
identified and corrective actions OIG recommends. This audit report represents the opinion of
OIG, and the findings in this audit report do not necessarily represent the final EPA position.
Final determinations on matters in this audit report will be made by EPA managers in accordance
with established EPA audit resolution procedures.

       We have no objections to the release of this report to the public.

       If you have any questions, please call me at (913) 551-7831 or Connie Walton, Audit
Manager, at (913) 551-7007. Please refer to report number E1HWF7-07-0023-8100080 on any
correspondence.

Attachment
                                  Missouri’s Water Quality Standards and Monitoring



               EXECUTIVE SUMMARY

INTRODUCTION       People use lakes, rivers, and streams for drinking water,
                   boating, fishing, swimming, irrigation, and industry. States
                   adopt water quality standards to protect these uses of the
                   water, and monitor the water to find out how well the water
                   quality supports the water uses. States and the
                   Environmental Protection Agency (EPA) use the water
                   quality information as a basis for their programs to control
                   and clean up water pollution. We selected Missouri because
                   Office of Water personnel suggested several states,
                   including Missouri, where audits could identify best
                   practices and needed improvements in the states' programs
                   to develop standards and monitor and report on water
                   quality.



OBJECTIVES        Our overall objective was to review Missouri's water quality
                  standards and monitoring program. Our specific audit
                  objectives were to answer the following questions:

                         C         Has Missouri implemented procedures to
                                   develop water quality standards that will
                                   protect its water quality?

                         C         Has Missouri implemented procedures to test
                                   and assess the quality of all appropriate
                                   waters in the State?

                         C         Are State reports on water quality complete,
                                   accurate, and useful for program
                                   management?

                         C         Has Region 7 implemented effective
                                   procedures to approve Missouri’s water

                                                         E1HWF7-07-0023-8100080
                              i
                                             Missouri’s Water Quality Standards and Monitoring

                                              quality standards and evaluate the State’s
                                              water quality standards setting, testing,
                                              assessing, and reporting?



RESULTS IN BRIEF             Missouri took significant action to protect and monitor its
                             water quality in conjunction with Region 7 oversight;
                             however, Missouri could benefit from some improvements.
                             Missouri needed to establish water quality standards that
                             will protect water quality at the level envisioned by the
                             Clean Water Act. Additionally, Missouri needed to design
                             its water quality testing to comprehensively assess the
                             quality of its waters. Missouri could improve its procedures
                             to ensure that its water quality reports are complete and
                             accurate. Region 7 needed to review and approve
                             Missouri's water quality standards. Further, Region 7
                             needed to better tie Missouri's use of available water quality
                             management tools to the grant funds provided by Region 7.

Several Missouri Water       Most of Missouri's standards to protect its water quality
Quality Standards Were       met EPA requirements; however, several of Missouri's
Less Restrictive Than        standards were less restrictive than those required by the
National Targets             Clean Water Act. Missouri did not adopt the national
                             “swimmable” use classification for all of its waters, and did
                             not conduct the required studies to show the “swimmable”
                             use was unachievable for waters not classified as
                             swimmable. Missouri did not ensure that the use
                             classifications reflected the actual water use. The State
                             could not demonstrate that water quality criteria that were
                             less restrictive than EPA's criteria would protect the water
                             uses. Further, Missouri did not adopt procedures to
                             maintain and protect water quality. As a result, Missouri
                             did not ensure that all of its waters were as clean as
                             intended by the Clean Water Act.

Missouri's Process to Test   Missouri made a good effort to monitor its water quality,
and Assess Water Quality     but could improve its process to test and assess its waters.
Could Be Improved            Missouri did not have a strategy to comprehensively

                                                                    E1HWF7-07-0023-8100080
                                        ii
                                            Missouri’s Water Quality Standards and Monitoring

                            evaluate all its waters. Missouri made water quality
                            assessments without appropriate test results. Also,
                            Missouri needed to update its water quality management
                            plans to communicate changing priorities. As a result,
                            Missouri did not know the quality of all of its waters and
                            did not have a plan to find out.

Missouri Should Have        Missouri’s reporting procedures did not ensure its water
Procedures for Complete     quality reports were complete and accurate. Missouri
And Accurate Water          excluded assessments it made of intermittent streams from
Quality Reporting           its 1996 water quality assessment reports and did not retain
                            a list of specific waters included in summary tables in the
                            report. Further, Missouri did not always ensure the
                            accuracy of the information in its water quality data
                            systems. As a result, Missouri did not comprehensively
                            report on its water quality. EPA uses information from
                            state water quality assessment reports to measure state
                            performance in protecting and maintaining water quality.

Region 7 Should Improve     Region 7 could have provided better technical assistance
Oversight and Technical     and oversight to ensure that Missouri had an adequate basis
Assistance for Missouri's   for its water quality programs. Region 7 did not fulfill its
Water Quality Programs      responsibility to approve Missouri's water quality standards;
                            however, the Region committed to timely approval actions
                            in its fiscal 1998/1999 regional management agreement.
                            The Region did not require as a grant condition that
                            Missouri use available water quality planning tools. Also,
                            the Region approved Missouri's impaired waterbody list
                            without confirming the list was complete. As a result, the
                            Region could not be sure Missouri protected its water
                            quality as envisioned by the Clean Water Act.



RECOMMENDATIONS             We recommend that the Regional Administrator require
                            Missouri to adopt the “swimmable” use classification where
                            it can be achieved or conduct the required studies to show
                            the use cannot be achieved. The Region should require
                            Missouri to adopt EPA or scientifically defensible criteria.

                                                                   E1HWF7-07-0023-8100080
                                      iii
                                 Missouri’s Water Quality Standards and Monitoring

                  The Region should request that Missouri develop a
                  monitoring strategy and management plans to ensure
                  Missouri comprehensively assesses the quality of its waters.
                  In addition, the Region should request that Missouri
                  implement procedures and controls to ensure its water
                  quality reports are complete and accurate. The Region
                  should timely review and take prompt action on the State's
                  water quality standards. Also, the Region needs to require
                  supporting information for Missouri's impaired waterbody
                  list.



AGENCY COMMENTS   Region 7 generally agreed with the findings and
                  recommendations. The Region provided comments to
                  clarify portions of the report, and we have incorporated
                  these comments and modified the report as appropriate.

                  Missouri concurred with our recommendations, but did not
                  provide a written response in time to be included in this
                  report. We will provide a copy of Missouri's response upon
                  request.




                                                        E1HWF7-07-0023-8100080
                            iv
                                                                     Missouri’s Water Quality Standards and Monitoring


                                      TABLE OF CONTENTS
                                                                                                                               Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

CHAPTERS

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
              Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
              Scope And Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
              Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

2        SEVERAL MISSOURI WATER QUALITY STANDARDS WERE LESS
         RESTRICTIVE THAN NATIONAL TARGETS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
              Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
              Missouri Did Not Adopt The National Water Quality
               “Swimmable” Use Classification For All Applicable
               Waterbodies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
              Missouri Needed to Protect Actual Water Uses . . . . . . . . . . . . . . . . . . . . . . . . . 8
              Missouri Adopted Criteria That Were Less Protective
               Than National Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
              Missouri Did Not Adopt Its Antidegradation
               Implementation Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
              Auditee Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

3        MISSOURI'S PROCESS TO TEST AND ASSESS WATER QUALITY
          COULD BE IMPROVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                13
              Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       13
              Missouri Needed to Better Plan Its Water Quality
               Monitoring . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        14
              Missouri Assessed Water Quality Without
               Appropriate Testing Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 16
              Missouri Did Not Update Water Quality Management
               Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   17

                                                                                                    E1HWF7-07-0023-8100080
                                                                 v
                                                                 Missouri’s Water Quality Standards and Monitoring

              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
              Auditee Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

4   MISSOURI SHOULD HAVE PROCEDURES FOR COMPLETE
     AND ACCURATE WATER QUALITY REPORTING . . . . . . . . . . . . . . . . . . . . . . .                                        19
         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      19
         Missouri Excluded Assessments of Intermittent Streams
          From Its Water Quality Assessment Report . . . . . . . . . . . . . . . . . . . . . . . . . .                         20
         Missouri Could Not Identify Specific Waters Included
          In Its Water Quality Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              21
         Missouri Could Not Justify Exclusion of Impaired Waterbodies
          From the Impaired Waterbody List . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     21
         Missouri Did Not Have Procedures to Ensure Data
          Systems Were Complete And Accurate . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         22
         Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    23
         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           24
         Auditee Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       25

5   REGION 7 SHOULD IMPROVE OVERSIGHT AND TECHNICAL ASSISTANCE
     FOR MISSOURI'S WATER QUALITY PROGRAMS . . . . . . . . . . . . . . . . . . . . . . .                                       26
         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      26
         Region 7 Did Not Approve Missouri's Water Quality
          Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    27
         Region 7 Did Not Require Missouri to Use Water
          Quality Management Tools . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 29
         Region 7 Approved Missouri’s Impaired Waterbody
          List Without Ensuring It Was Complete . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      31
         Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    31
         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           32
         Auditee Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       32


EXHIBITS

1   SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

2   LESS RESTRICTIVE CRITERIA IN MISSOURI’S 1996 WATER
     QUALITY STANDARDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35



                                                                                                E1HWF7-07-0023-8100080
                                                            vi
                                                                Missouri’s Water Quality Standards and Monitoring

3    POLLUTANTS LIMITED IN PERMITS AND
      NOT IN WATER QUALITY STANDARDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

APPENDICES

I    EPA RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

II   DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42




                                                                                             E1HWF7-07-0023-8100080
                                                          vii
                                    Missouri’s Water Quality Standards and Monitoring


                   ABBREVIATIONS


CFR             Code of Federal Regulations

EPA             Environmental Protection Agency

OIG             Office of Inspector General

STORET          STOrage and RETrieval

TMDL            Total Maximum Daily Loads

303(d) List     Impaired Waterbody List

305(b) Report   Water Quality Assessment Report




                                                           E1HWF7-07-0023-8100080
                                 viii
                         Missouri’s Water Quality Standards and Monitoring

          CHAPTER 1
          INTRODUCTION

PURPOSE   People use lakes, rivers, and streams for drinking water,
          boating, fishing, swimming, irrigation, and industry. States
          adopt water quality standards to protect these water uses,
          and monitor the water to find out how well the water
          quality supports the uses. States and the Environmental
          Protection Agency (EPA) use their water quality
          information as a basis for, and to measure performance of,
          their programs to control and clean up water pollution. We
          selected Missouri because Office of Water personnel
          suggested several states, including Missouri, where audits
          could identify best practices and needed improvements in
          the states' programs to develop standards and monitor and
          report on water quality.

          Our overall objective was to review Missouri's water quality
          standards and monitoring program. Our specific objectives
          were to identify the following:

                 C         Has Missouri implemented procedures to
                           develop water quality standards that will
                           protect its water quality?

                 C         Has Missouri implemented procedures to
                           test and assess the quality of all appropriate
                           waters in the State?

                 C         Are State reports on water quality complete,
                           accurate, and useful for program
                           management?

                 C         Has Region 7 implemented effective
                           procedures to approve Missouri’s water
                           quality standards and evaluate the State’s
                           water quality standards setting, testing,
                           assessing, and reporting?

                                                 E1HWF7-07-0023-8100080
                     1
                            Missouri’s Water Quality Standards and Monitoring

BACKGROUND   The Clean Water Act is the primary legislation addressing
             water quality programs. The Act’s objective is to restore
             and maintain the quality of the nation’s surface waters. The
             Clean Water Act requires states to adopt water quality
             standards. These standards are an important basis for state
             actions to control and remedy water pollution. Water
             quality standards have three parts: water use classifications,
             water quality criteria, and an antidegradation policy.

             States classify the state waters according to how the water
             can be used, such as for drinking water supply, fishing, and
             swimming. The waters can have multiple use classifications.
             The Clean Water Act goal is that all waters of the United
             States will be “fishable, swimmable” where attainable. The
             “fishable” goal provides for the protection and propagation
             of fish, shellfish, and wildlife. The “swimmable” goal
             provides for recreation in and on the water. States are
             required to adopt “fishable, swimmable” use classifications
             for all their waters, unless they can show that the water
             could not sustain these uses. States can adopt additional
             use classifications, such as boating, drinking water supply,
             and agricultural or industrial use.

             Once the water use classification is set, the Act requires the
             state to develop water quality criteria for that use. Water
             quality criteria identify conditions that sustain the water use,
             such as the amount of a specific pollutant that may be
             present in the water, or the biological or physical condition
             of the water. For example, the water quality criteria for a
             “swimmable” use could identify how much fecal coliform
             can be present in the water and allow safe swimming.

             EPA publishes criteria that set numerical limits for
             pollutants based on the effect the pollutants have on the
             water use classifications. The Clean Water Act required
             EPA to develop criteria for and designate 126 chemicals as
             “priority” toxic pollutants; i.e., the most persistent,
             prevalent, and toxic of chemicals. EPA has developed
             criteria for 99 “priority” toxic pollutants and 30 other

                                                   E1HWF7-07-0023-8100080
                        2
               Missouri’s Water Quality Standards and Monitoring

pollutants. The states may use EPA's criteria or develop
their own scientifically defensible criteria.

Title 40, Code of Federal Regulations (CFR) part 131.12
requires states to have an antidegradation policy to
conserve, maintain, and protect existing uses of waterbodies
and maintain water quality. The antidegradation policy also
should protect waters of exceptionally high quality or value.

States are required to review their water quality standards
once every 3 years and obtain EPA approval for the
standards. EPA is required to promulgate water quality
standards for the state if EPA disapproves a state’s water
quality standards. The state’s water quality standards
remain in effect unless EPA promulgates standards for the
state.

CFR part 130.4, Water quality monitoring, requires the
states to develop a monitoring program to assess whether
the state’s waters meet the water quality standards. The
state water quality monitoring program generates important
information necessary to guide management decisions and
track environmental progress. The monitoring program
identifies the waters to be tested, the frequency of testing,
the types of testing, and the entity to conduct the testing.
The state monitoring program must meet EPA’s general
quality assurance requirements.

The Clean Water Act requires each state to submit to EPA a
biennial water quality assessment report (305(b) report)
summarizing its water quality assessments. EPA
summarizes the state reports in a national report to
Congress. EPA uses the state water quality assessments to
measure performance in achieving its goal of clean and safe
water.

If a waterbody does not meet its water quality standards,
the state classifies the waterbody as impaired and
determines the cause of impairment. Water pollution comes

                                      E1HWF7-07-0023-8100080
           3
               Missouri’s Water Quality Standards and Monitoring

from either point or nonpoint sources. Point source
discharges are controlled through the use of permits.
Examples of point source dischargers are municipal sewage
treatment plants and industrial facilities. These types of
facilities discharge through identifiable conveyances, such as
pipes or sewers into surface waters. Nonpoint sources of
pollution are diffuse and less readily identifiable, such as
polluted runoff from agriculture.

Once the state identifies its impaired waterbodies, the state
is required to develop total maximum daily loads if existing
controls are not sufficient to correct the impairment. Total
maximum daily loads specify the amount of pollution
allowed to enter a waterbody from both point and nonpoint
sources. The Clean Water Act requires the state to submit
to EPA a biennial list of its impaired waterbodies (303(d)
list) that will require total maximum daily loads. EPA
reviews and approves the impaired waterbody list and all
state total maximum daily loads.

The Missouri Clean Water Commission and the Missouri
Department of Natural Resources are responsible for
protecting and maintaining Missouri's water quality. In
fiscal 1998, EPA provided grants to the Department of
Natural Resources of approximately $2.7 million for its
water pollution control programs. The Clean Water
Commission sets pollution control policy in Missouri. The
Water Pollution Control Program within the Department of
Natural Resources is responsible for advising the
Commission on water quality standards, monitoring water
quality, and compiling the testing data from all sources into
its water quality information system. The Water Pollution
Control Program then assesses whether the individual
waterbodies meet the state water quality standards.

Missouri's 1996 water quality assessment report concluded
that 47 percent of its stream miles and 15 percent of its lake
acres were impaired. The waters were impaired mainly



                                      E1HWF7-07-0023-8100080
           4
                             Missouri’s Water Quality Standards and Monitoring

              from agricultural sources, such as soil erosion and
              herbicides, or from natural sources.



SCOPE AND     We performed our audit in accordance with the Government
METHODOLOGY   Auditing Standards (1994 revision) issued by the
              Comptroller General of the United States as they apply to
              program audits. Our review included tests of the program
              records and other auditing procedures we considered
              necessary. We conducted our fieldwork from July through
              December 1997. We performed our fieldwork at Region 7
              in Kansas City, Kansas, and at Missouri Department of
              Natural Resources in Jefferson City, Missouri.

              See Exhibit 1 for scope and methodology details.



PRIOR AUDIT   Neither the Office of Inspector General (OIG) nor the U.S.
COVERAGE      General Accounting Office issued any recent reports directly
              related to Missouri's water quality standards and
              monitoring.




                                                    E1HWF7-07-0023-8100080
                         5
                                  Missouri’s Water Quality Standards and Monitoring

                    CHAPTER 2
   SEVERAL MISSOURI WATER QUALITY STANDARDS WERE
       LESS RESTRICTIVE THAN NATIONAL TARGETS


                   Most of Missouri's standards to protect its water quality met
                   EPA requirements; however, several of Missouri's standards
                   were less restrictive than those required by the Clean Water
                   Act. The Clean Water Act requires every state to establish
                   water quality standards, including use classifications,
                   criteria, and procedures to maintain and protect water
                   quality. Missouri did not adopt the national “swimmable”
                   use classification for all of its waters and did not have
                   adequate procedures to ensure that the use classifications
                   reflected actual uses. The State did not always adopt water
                   quality criteria that were as protective as national criteria.
                   Further, Missouri did not adopt antidegradation
                   implementation procedures to maintain and protect water
                   quality. As a result, Missouri did not ensure that all of its
                   waters were as clean as intended by the Clean Water Act.



BACKGROUND         CFR part 131.10, Designation of uses, requires every state
                   to adopt “fishable, swimmable” use classifications for every
                   waterbody, or else demonstrate why the uses cannot be
                   achieved. If the state does not adopt the “fishable,
                   swimmable” use classifications, the state must conduct a
                   study to determine if the “fishable, swimmable” use
                   classifications are not achievable. The state may establish
                   use classifications that have not actually been achieved for
                   the waterbody at the time it establishes the uses.

                   CFR part 131.11, Criteria, requires states to adopt water
                   quality criteria based on sound science for any pollutants
                   which may be present in the waters and negatively impact
                   the state use classifications. The regulation does not limit
                   the requirement to the “priority” toxic pollutants. States

                                                         E1HWF7-07-0023-8100080
                              6
                                    Missouri’s Water Quality Standards and Monitoring

                     can establish criteria based on EPA-published criteria, or
                     develop criteria based on scientifically defensible methods.

                     CFR part 131.12, Antidegradation policy, requires the state
                     to develop methods to implement its antidegradation policy.
                     State antidegradation policies and implementation
                     procedures are subject to EPA review.



MISSOURI DID NOT     Missouri did not classify 75 percent of its significant streams
ADOPT THE NATIONAL   and 11 percent of its lakes as “swimmable” and did not
WATER QUALITY        conduct the required studies to justify that the “swimmable”
“SWIMMABLE” USE      use classification was not achievable. The Clean Water Act
CLASSIFICATION FOR   required every waterbody to be “swimmable,” where
ALL APPLICABLE       attainable. As a result, Missouri did not protect the lakes
WATERBODIES          and streams from bacteria that can be harmful for human
                     health.

                     Missouri did not adopt the “swimmable” use classification
                     for all its waterbodies. State officials said that the waters
                     were not classified as “swimmable” because physical
                     conditions made them unattractive for swimming. For
                     example, Missouri officials said that most streams in north
                     Missouri are not classified as swimmable because they are
                     muddy. However, EPA's Water Quality Standards
                     Handbook states that physical factors alone do not
                     adequately justify not adopting a “swimmable” use
                     classification.

                     Furthermore, Missouri did not conduct the required studies
                     for these waterbodies. Missouri officials said they were
                     unaware of the study requirements. However, in a letter
                     dated November 29, 1993, Region 7 informed Missouri that
                     the studies were required. We reviewed a sample of 60
                     waterbodies including 44 waterbodies that were not
                     classified as “swimmable,” and Missouri had not conducted
                     the required studies for any of the 44 waterbodies.


                                                           E1HWF7-07-0023-8100080
                                7
                                     Missouri’s Water Quality Standards and Monitoring

MISSOURI NEEDED TO   Missouri’s procedures for identifying changes in water uses
PROTECT ACTUAL       did not ensure that the actual water uses were adopted. The
WATER USES           Clean Water Act requires each state to establish water
                     quality standards that consider the waters' use and value for
                     public water supplies and other purposes. Missouri
                     encouraged and generally considered comments on the
                     public's uses of lakes and streams. However, it did not have
                     a procedure to list comments received and track whether the
                     comments were considered for use classifications in the
                     triennial review of water quality standards. Without such a
                     process, critical information can be lost.

                     For example, we reviewed a sample of 60 waterbodies and
                     found Missouri was notified that 1 stream was used for
                     drinking water supply, but Missouri did not adopt the use in
                     its next triennial review. Missouri officials agreed that the
                     drinking water use classification should be adopted for the
                     stream. However, Missouri did not have a process in place
                     to ensure all its waterbodies were classified and protected
                     for their actual uses.



MISSOURI ADOPTED     Missouri established water quality criteria that applied
CRITERIA THAT WERE   generally to all its waters for a given use classification;
LESS PROTECTIVE      however, several criteria were less protective than national
THAN NATIONAL        criteria set by EPA. EPA has developed criteria for 99
CRITERIA             “priority” toxic pollutants and 30 other pollutants. Missouri
                     adopted less restrictive criteria for eight “priority” toxic
                     pollutants and six nonpriority pollutants, and did not
                     provide scientific justification for the less restrictive criteria.
                     Missouri did not demonstrate that the designated uses
                     would be protected with the less stringent criteria, or that
                     the pollutants were not present in the State. Also, Missouri
                     did not adopt criteria for all known pollutants discharged in
                     its waters. As a result, Missouri allowed more of these
                     pollutants to be present in its waters before it considered
                     them a threat to the water quality.


                                                             E1HWF7-07-0023-8100080
                                 8
               Missouri’s Water Quality Standards and Monitoring

Exhibit 2 shows the 14 pollutants and use classifications
where Missouri’s criteria were less restrictive, along with
the following explanations Missouri provided:

   C   Four pollutants--Missouri did not provide an
       explanation for why it did not adopt EPA criteria,
       although Missouri told us it would adopt the criteria
       in its next review.
   C   Three pollutants--Missouri stated that it did not
       adopt EPA criteria or adopted less restrictive criteria
       because naturally occurring concentrations
       prevented the State from adopting EPA criteria.
       However, even if natural background levels exceed
       the national criteria limits, CFR part 131.11 requires
       the state to identify site-specific criteria where
       natural background levels are higher.
   C   One pollutant--Missouri did not adopt EPA criteria
       because it stated implementing EPA’s criteria across
       the State would be too expensive. However, EPA
       allows the State to conduct studies to identify if the
       criteria are not necessary for specific waterbodies.
   C   Two pollutants--Missouri stated it did not adopt
       EPA criteria because it was unaware of current EPA
       criteria.
   C   One pollutant--Missouri adopted less restrictive
       criteria because it used outdated EPA criteria.
   C   Three pollutants--Missouri did not adopt EPA
       criteria and adopted less restrictive criteria, but did
       not provide an explanation to us.

In November 1993, Region 7 notified Missouri that more
restrictive criteria were required for 12 of the 14 pollutants,
as a result of the Region’s review of Missouri's proposed
1994 water quality standards. In February 1994, Missouri
told the Region it would adopt criteria for 4 of the 12
pollutants in its next water quality standards review, but had
not done so for its 1996 water quality standards. For the
remaining eight pollutants, Missouri provided similar
explanations to the Region as above.

                                      E1HWF7-07-0023-8100080
           9
                                  Missouri’s Water Quality Standards and Monitoring

                   Missouri only adopted criteria for pollutants for which EPA
                   published criteria, even though Missouri limited other
                   pollutants in its water quality permits. Missouri did not
                   have procedures in place to identify pollutants discharged in
                   the permits and consider if the pollutants should be limited
                   in the water quality standards. Missouri did not have a
                   process to identify the impact on receiving waters and the
                   number of permits affected by these pollutants. We
                   reviewed 30 permits and found 9 pollutants, such as
                   nitroglycerin and phosphorous, that were restricted in the
                   permits but were not included in Missouri’s water quality
                   standards. These pollutants are listed in Exhibit 3. As a
                   result, Missouri does not monitor and report on the effect of
                   these pollutants on the receiving water. Missouri said its
                   Clean Water Commission was reluctant to adopt criteria in
                   the absence of EPA-published criteria and had the
                   philosophy that if EPA did not establish criteria, it was not
                   necessary for Missouri to do so.



MISSOURI DID NOT   Missouri did not have approved antidegradation
ADOPT ITS          implementation procedures. CFR part 131.12,
ANTIDEGRADATION    Antidegradation policy, requires states to develop
IMPLEMENTATION     implementation procedures to maintain and protect higher
PROCEDURES         quality waters. The regulation identifies two levels of
                   higher quality waters. Missouri has implemented
                   procedures to protect its highest quality waters; however,
                   Missouri had not implemented its draft procedures to
                   protect the second level of high quality waters. Missouri
                   drafted implementation procedures in 1994, but did not
                   finalize and adopt the procedures. Missouri did not conduct
                   antidegradation reviews to identify and protect the second
                   level of high quality waters as provided in the procedures.
                   Without these procedures, Missouri cannot ensure that it
                   consistently identifies and protects its higher quality waters.
                   State and Region 7 officials said that Region 7 informally
                   notified Missouri that implementation procedures were
                   required, but Region 7 did not document any formal

                                                         E1HWF7-07-0023-8100080
                             10
                                 Missouri’s Water Quality Standards and Monitoring

                  comments to Missouri on its draft implementation
                  procedures.



CONCLUSION        While Missouri took action to protect its water quality
                  through its water quality standards, it needed to strengthen
                  its efforts. Missouri's use classifications and criteria did not
                  protect water quality at the level set by the Clean Water Act
                  and national criteria. Missouri's water quality standards
                  serve as the foundation for its approach to pollution control
                  and water quality management. If Missouri does not adopt
                  national criteria, it should explain its reasons and ensure its
                  criteria are based on sound science. Otherwise, Missouri
                  cannot be sure that the pollutant levels it allows in its waters
                  will not threaten human health or aquatic life.



RECOMMENDATIONS   We recommend that the Regional Administrator:

                  2.1        Work with Missouri and provide technical
                             assistance to schedule the necessary studies to
                             identify if the “swimmable” use classification
                             could be achieved for waterbodies where
                             Missouri has not adopted this use.

                  2.2        Request that Missouri establish a procedure to
                             track comments received on actual uses, and
                             ensure they are considered in changing water use
                             classifications.

                  2.3        Review Missouri's water quality standards to
                             determine if Missouri has a scientifically
                             defensible basis for criteria that are less
                             restrictive than EPA-published criteria and take
                             appropriate action to disapprove any criteria that
                             are not scientifically defensible. Provide


                                                        E1HWF7-07-0023-8100080
                            11
                                     Missouri’s Water Quality Standards and Monitoring

                                 technical assistance to help the State develop
                                 scientifically defensible criteria, if appropriate.

                     2.4         Work with Missouri to ensure the State adopts
                                 the water quality criteria for the four pollutants it
                                 agreed to adopt by the next water quality
                                 standards review.

                     2.5         Request Missouri to adopt an antidegradation
                                 implementation policy that supports the intent of
                                 the Clean Water Act. Request that Missouri
                                 document its antidegradation reviews and
                                 identify and protect the second level of high
                                 quality waters.



AUDITEE COMMENTS     Region 7 generally agreed with the findings and
AND OIG EVALUATION   recommendations. The Region provided comments to
                     clarify portions of the report, and we have incorporated
                     these comments and modified the report as appropriate.

                     Region 7 stated Missouri's omission of a scientifically-
                     defensible justification for its criteria is a more critical issue
                     than the number of less protective criteria, because without
                     such justification the Region cannot conclude that the
                     criteria are adequate, nor can it conclude that the criteria are
                     unprotective. Region 7 emphasized, and we agree, that
                     although the State may adopt less stringent criteria than
                     EPA’s, the State must provide scientifically defensible data
                     that these criteria will fully protect the waters to which they
                     apply.




                                                            E1HWF7-07-0023-8100080
                                12
                                    Missouri’s Water Quality Standards and Monitoring

                     CHAPTER 3
         MISSOURI'S PROCESS TO TEST AND ASSESS
          WATER QUALITY COULD BE IMPROVED

                    Missouri made a good effort to monitor its water quality,
                    but could improve its process to test and assess its waters.
                    Missouri needed to design its water quality testing to
                    comprehensively assess the quality of its waters. Federal
                    regulations require states to test and assess the quality of all
                    their waters. Missouri did not have a strategy to
                    comprehensively evaluate all of its waters. Missouri made
                    water quality assessments without appropriate testing
                    results. Missouri did not communicate changing priorities
                    through updated water quality management plans. As a
                    result, Missouri did not know the quality of all of its waters
                    and did not have a plan to find out.



BACKGROUND          CFR part 130.4, Water quality monitoring, requires states
                    to establish appropriate testing to monitor their water
                    quality. This monitoring information is to be used to
                    support activities to abate and control pollution, develop
                    water quality standards, and report water quality
                    information to the public, EPA, and Congress. EPA issued
                    EPA Guidelines for Preparation of the 1996 State Water
                    Quality Assessments (305(b) Reports) to provide guidance
                    on testing and assessing water quality. The guidelines
                    established a target of valid and comparable assessments
                    within and among states.

                    EPA Section 106 and 604(b) Grant Guidance, dated
                    October 17, 1994, recommended that states provide a
                    multiyear monitoring strategy with their grant applications.
                    The monitoring strategy should address how the state will
                    assess all waters on a periodic basis using a monitoring
                    design targeted to the conditions of and use classifications
                    for the waters. The multiyear strategy was to provide the

                                                           E1HWF7-07-0023-8100080
                               13
                                    Missouri’s Water Quality Standards and Monitoring

                     framework for the regional/state annual work plan
                     negotiations. The guidance recommended the state address
                     specific elements, including but not limited to water quality
                     problems, information gaps, timelines, testing approaches,
                     coordination with other agencies, and quality assurance.

                     States are required to conduct planning based on water
                     quality problems identified in their water quality assessment
                     reports. CFR part 130.5, Continuing planning process,
                     required states to establish a continuing planning process for
                     managing their water quality program. CFR part 130.6,
                     Water quality management plans, required states to prepare
                     water quality management plans that identify and
                     recommend procedures to control priority point and
                     nonpoint water quality problems. The state annual work
                     programs should be based on the water quality management
                     plans and water quality problems identified in the water
                     quality assessment reports.



MISSOURI NEEDED TO   Missouri did not use available tools to plan its water quality
BETTER PLAN ITS      monitoring. Missouri did not prepare a multiyear strategy
WATER QUALITY        to comprehensively evaluate all its waters and did not
MONITORING           submit to Region 7 annual work plans that addressed all
                     EPA recommended planning elements. Further, Missouri
                     did not have a quality assurance management plan that
                     ensured the data gathered was of sufficient quality.
                     Missouri made a good effort to stretch limited resources by
                     coordinating with other agencies that conducted water
                     quality testing. However, because Missouri did not use
                     available planning tools, Missouri did not have sufficient
                     monitoring data to adequately identify the scope and source
                     of pollution in its waters.

                     Missouri did not prepare a multiyear strategy to
                     comprehensively evaluate all its waters. Missouri drafted a
                     monitoring plan but did not submit it to EPA. The draft
                     plan did not meet the recommended elements of a multiyear

                                                           E1HWF7-07-0023-8100080
                               14
               Missouri’s Water Quality Standards and Monitoring

strategy as it did not address how the State would assess all
its waters. The plan was generally targeted to specific
waters that Missouri historically monitored. The draft
monitoring plan did not target the monitoring to the
conditions of and use classifications for all waters.

Missouri’s fiscal 1994 through 1997 grant work plans did
not address all EPA recommended planning elements. The
work plans described the planned number of sites to be
monitored. However, the work plans did not fully address
known water quality problems, information gaps, timelines,
and testing approaches as recommended by EPA guidance.
For example, Missouri staff stated they did not have
adequate information from their current testing to support
their efforts to identify nonpoint source pollution and
sediments. Missouri officials said this lack of information
hampered their development of the impaired waterbody list.
However, Missouri’s 1994 through 1997 work plans did not
include monitoring strategies to obtain this information.

Further, Missouri's fiscal 1994 through 1997 grant work
plans did not fully address data quality assurance as
recommended by the guidance. The work plans did not
require a current overarching quality management plan, but
did require quality assurance project plans for individual
projects. EPA requires a quality assurance program for all
environmentally-related activities performed for the Agency.
Missouri and Region 7 recognized that Missouri's quality
management plan was outdated, and Missouri submitted
drafts of its quality management plan to the Region for its
comments. However, without the quality management plan,
Missouri and EPA have less assurance that water quality
decisions made by the State and EPA are supported by high
quality environmental data.

While Missouri did not include all the elements in its
planning documents, Missouri made a good effort to stretch
its limited monitoring resources. Missouri coordinated with
other state and federal agencies to obtain their water quality

                                      E1HWF7-07-0023-8100080
          15
                                     Missouri’s Water Quality Standards and Monitoring

                      testing results and avoided duplication of effort. Missouri
                      also contracted with the U.S. Geological Survey to take
                      advantage of its expertise in water quality testing. Missouri
                      implemented a program to train and encourage volunteers
                      to test water quality. Missouri officials said that the
                      volunteer testing provided a general indication of problems
                      that helped Missouri target further testing. The volunteer
                      testing was perceived as a good way to inform and involve
                      citizens.



MISSOURI ASSESSED     Missouri assessed its water quality without appropriate
WATER QUALITY         water quality testing results. EPA guidance recommends
WITHOUT               states assess only those waters with reliable water quality
APPROPRIATE TESTING   information. Missouri assessed waters as unimpaired if it
RESULTS               had no information to the contrary, even if it did not have a
                      basis for evaluation that was consistent with EPA
                      guidelines, such as applicable testing results. Missouri
                      officials said that they did not have adequate resources to
                      test all use classifications for all waters. As a result,
                      Missouri assessed waters as clean when it did not know the
                      true condition of the water.

                      EPA Guidelines for Preparation of the 1996 State Water
                      Quality Assessments (305(b) Reports) requires states assess
                      only those waters with reliable water quality information.
                      States are allowed to assess waterbodies based on reliable
                      indicators of water quality in addition to direct testing.
                      Nevertheless, states may not assess waters as unimpaired in
                      the absence of sufficient information to make the
                      assessment.

                      Missouri assessed waters as unimpaired if it had no
                      information to the contrary. We reviewed assessments for
                      60 waterbodies and found that Missouri tested some
                      pollutants for specific uses but inappropriately applied the
                      test results to all use classifications. For example, Missouri
                      assessed seven waterbodies as supporting the “swimmable”

                                                            E1HWF7-07-0023-8100080
                                16
                                  Missouri’s Water Quality Standards and Monitoring

                   use classification but did not test for bacteria limited by its
                   criteria. Missouri assessed one river as supporting the
                   swimmable use classification, without determining whether
                   the bacteria levels met its criteria. Further, Kansas listed the
                   upstream portion of the river as impaired due to the level of
                   the bacteria present in the water at that point.



MISSOURI DID NOT   Missouri did not communicate changing water quality
UPDATE WATER       priorities through updated water quality management plans.
QUALITY            Federal regulations require the states to prepare a
MANAGEMENT PLANS   continuing planning process and water quality management
                   plans and update the plans as needed. The water quality
                   management plans, along with current water quality
                   problems, are the basis for state annual work plans.
                   Missouri documented its continuing planning process in
                   1977 and its water quality management plan in 1979 but had
                   not updated them. Missouri should have revisited its
                   planning documents to ensure that they continued to focus
                   on priority areas. EPA and other states have been sued for
                   inadequate or outdated water quality plans, and a proactive
                   planning approach would help avoid having the courts set
                   Missouri’s water quality priorities.



CONCLUSION         Missouri could not fully answer the public’s question: Is my
                   water safe to swim in, fish from, or drink? Missouri
                   believes that its water quality is improving, but has not
                   targeted its monitoring to fully identify the picture of its
                   water quality. Without up-to-date management plans,
                   neither Missouri nor Region 7 could ensure the highest
                   priority water quality problems were addressed. Because
                   the State was not identifying its plans in writing, it did not
                   ensure that it identified problems, planned actions,
                   established milestones, and tracked progress after taking
                   action.


                                                         E1HWF7-07-0023-8100080
                             17
                                    Missouri’s Water Quality Standards and Monitoring

RECOMMENDATIONS      We recommend that the Regional Administrator:

                     3.1        Provide technical assistance to help Missouri
                                develop a multiyear monitoring strategy and
                                monitoring work plan to address the elements
                                described in the grant guidance and submit these
                                documents with its grant application.

                     3.2        Request that Missouri's monitoring work plan
                                address how Missouri will target water quality
                                testing for use classifications, water quality
                                problems, and information gaps.

                     3.3        Request that Missouri address quality assurance
                                as an element of the grant monitoring work plan.
                                Continue to assist Missouri to develop a quality
                                management plan.

                     3.4        Request that Missouri report assessments of
                                waterbodies consistent with EPA water quality
                                assessment report guidelines.

                     3.5        Require that Missouri review and update its
                                continuing planning process and water quality
                                management plan to reflect changing conditions
                                and current water quality priorities.



AUDITEE COMMENTS     Region 7 generally agreed with the findings and
AND OIG EVALUATION   recommendations. The Region provided comments to
                     clarify portions of the report, and we have incorporated
                     these comments and modified the report as appropriate.




                                                           E1HWF7-07-0023-8100080
                               18
                                  Missouri’s Water Quality Standards and Monitoring

                   CHAPTER 4
   MISSOURI SHOULD HAVE PROCEDURES FOR COMPLETE
       AND ACCURATE WATER QUALITY REPORTING

                   Missouri’s reporting procedures did not ensure its water
                   quality reports were complete and accurate. Federal
                   regulations require states to report on the quality of all
                   waters of the state. Missouri excluded assessments it made
                   of intermittent streams from its 1996 water quality
                   assessment reports. Missouri did not retain a list of specific
                   waters the State included in summary tables in the report;
                   thus, the report was not verifiable. Further, Missouri did
                   not ensure that data systems used to generate the reports
                   contained accurate information. As a result, Missouri did
                   not comprehensively report on its water quality. EPA uses
                   information from state water quality assessment reports to
                   measure state performance in protecting and maintaining
                   water quality.



BACKGROUND         The Clean Water Act section 305(b) requires states to
                   prepare and submit to EPA a report describing the water
                   quality of all waters of the United States within the state
                   every 2 years. CFR part 130.8, Water quality report, states
                   that the water quality assessment reports serve as the
                   primary assessment of state water quality and provide the
                   basis for water quality management planning. CFR part
                   122.2, Definitions, defines waters of the United States to
                   include intermittent streams and tributaries of waters that
                   could affect interstate commerce. Intermittent streams are
                   streams that are not continuous or do not flow all year.
                   EPA Guidelines for Preparation of the 1996 State Water
                   Quality Assessments (305(b) Reports) recommends that
                   states report on all waters for which reliable water quality
                   information is obtained.

                   Clean Water Act section 303(d) requires the states to list

                                                         E1HWF7-07-0023-8100080
                             19
                                   Missouri’s Water Quality Standards and Monitoring

                    impaired waterbodies. The impaired waterbody list is used
                    to schedule waterbodies for the development of total
                    maximum daily loads, which are calculations to limit or
                    control pollutant discharges to restore the water quality.
                    CFR part 130.7, Total maximum daily loads (TMDL) and
                    individual water quality-based effluent limitations, requires
                    states to identify all impaired waterbodies where existing
                    pollution control requirements are not stringent enough to
                    achieve the water quality standards. To develop the list,
                    each state is required to use all existing and readily available
                    water quality related data, including the water quality
                    assessment report. Each state is required to provide to EPA
                    documentation to support its decision to list or not list its
                    waters. EPA's Guidance for 1994 303(d) Lists (also
                    applicable for 1996) said that the state should plan to collect
                    additional information if testing results are not sufficient to
                    determine if a waterbody should be included on the impaired
                    waterbody list.

                    EPA Guidelines for Preparation of the 1996 State Water
                    Quality Assessments (305(b) Reports) recommends that
                    states keep their monitoring and assessment databases
                    current to simplify report preparation and increase the
                    usefulness of assessment data. EPA Section 106 and 604(b)
                    Grant Guidance recommends that the grant work plans
                    provide for data storage, management, and sharing. The
                    guidance recommends that states store quality assured data
                    in a computerized database.



MISSOURI EXCLUDED   Missouri did not report the assessments it had made of its
ASSESSMENTS OF      smaller, intermittent streams. Although Missouri staff
INTERMITTENT        tested and assessed many intermittent streams, they believed
STREAMS FROM ITS    that reporting on these intermittent streams was not
WATER QUALITY       required. Federal regulations require states to report on all
ASSESSMENT          waters, including intermittent streams and tributaries of
REPORT              waters, that could affect interstate commerce. Missouri
                    staff estimated 60 percent of Missouri's permit holders

                                                          E1HWF7-07-0023-8100080
                              20
                                      Missouri’s Water Quality Standards and Monitoring

                       discharged into intermittent streams, which thus could affect
                       interstate commerce. Also, the intermittent streams often
                       are tributaries of significant streams that Missouri includes
                       in its water quality assessment report. As a result,
                       Missouri’s water quality reports were not complete, and
                       Missouri was not ensuring it identified and developed
                       measures to control water quality problems for these
                       streams.



MISSOURI COULD NOT     Missouri’s 1996 water quality assessment report was not
IDENTIFY SPECIFIC      verifiable. Missouri appropriately included summary totals
WATERS INCLUDED        in this report. However, it did not retain a list of the
IN ITS WATER           waterbodies that made up the summary totals, either in hard
QUALITY REPORT         copy or computerized form, and could not reconstruct the
                       report. Further, Missouri staff said they did not review the
                       summary totals in the report for accuracy as they did not
                       have the resources to conduct this review. As a result,
                       Missouri’s water quality reports were not supportable.
                       Missouri agreed to maintain copies of the detailed support
                       and review the report for accuracy in the future.



MISSOURI COULD NOT     Missouri did not document the impaired waters that were
JUSTIFY EXCLUSION OF   excluded from the 1996 impaired waterbody list. CFR part
IMPAIRED               130.7 requires each state to use all existing and readily
WATERBODIES FROM       available information to develop the impaired waterbody
THE IMPAIRED           list, including the most recent water quality assessment
WATERBODY LIST         report. Although the regulation allows a state to exclude an
                       impaired water from the list, the state must demonstrate
                       good cause for excluding the water. Recent court rulings
                       have evaluated the sufficiency of the impaired waterbody list
                       based on the impaired waterbodies identified in the water
                       quality assessment report.

                       Missouri staff did not retain a list of all impaired
                       waterbodies reported in its water quality assessment report,

                                                             E1HWF7-07-0023-8100080
                                 21
                                  Missouri’s Water Quality Standards and Monitoring

                   along with justification for exclusion from the list.
                   Therefore, we could not assess the completeness of the
                   impaired waterbody list, nor could Missouri be assured that
                   waters were not inadvertently or inappropriately omitted
                   from the list.

                   Missouri representatives told us that they excluded some
                   waterbodies from the impaired waterbody list because they
                   had inadequate test results. We reviewed a sample of 60
                   waterbodies, of which 29 were impaired. Missouri
                   representatives stated they excluded 23 of the 29 impaired
                   waterbodies based on inadequate test results. However,
                   Missouri did not update its monitoring plan to schedule the
                   23 waterbodies for additional testing for the pollutant
                   causing the impairment, although Missouri staff said they
                   intended to begin monitoring these waterbodies beginning in
                   about 2002.



MISSOURI DID NOT   Missouri did not ensure that data systems used to track
HAVE PROCEDURES    monitoring results accurately reflected use classifications
TO ENSURE DATA     and water quality assessments. Prudent business practices
SYSTEMS WERE       would require that data entry procedures ensure the data
COMPLETE AND       was entered timely and routinely verified. Missouri did not
ACCURATE           have procedures to verify the data in its water quality data
                   systems and did not update the data timely. Additionally,
                   Missouri did not record its water quality testing results in
                   EPA’s water quality database. As a result, the data systems
                   Missouri and EPA used to track water quality testing and
                   assessments were not accurate or complete.

                   Missouri did not verify the accuracy and completeness of
                   data entered into its Water Quality Information System.
                   Missouri uses the Water Quality Information System to
                   track testing and assessment results and generate the water
                   quality assessment report. Missouri staff said they did not
                   have procedures to ensure that the data was accurate. We
                   reviewed a sample of 60 waterbodies and found 7

                                                         E1HWF7-07-0023-8100080
                             22
                            Missouri’s Water Quality Standards and Monitoring

             waterbodies with inaccurate use classifications and 3 with
             an inaccurate water quality test date. Further, we found
             two waterbodies that were not included in the Water
             Quality Information System. Missouri agreed to assign a
             person to review the accuracy of the information in the
             system on a routine basis.

             Missouri did not update the Water Quality Information
             System timely. Missouri did not enter the 1994 use
             classification changes until the fall of 1997. Accurate use
             classification information is essential for water quality
             assessments, which Missouri makes routinely during the
             year.

             Missouri did not record its water quality testing results in
             STORET (STOrage and RETrieval), the EPA database
             used to record water quality test results. States, federal
             agencies, local governments, and universities use STORET.
             Missouri officials said STORET was cumbersome to use;
             however, Missouri staff used STORET test information
             from bordering states and other agencies to assess
             Missouri's waters. However, the bulk of Missouri's water
             quality testing was conducted by other agencies, such as the
             U.S. Geological Survey, that did update STORET. EPA
             Section 106 and 604(b) Grant Guidance recommends that
             the monitoring work plans provide for water quality test
             data to be entered into STORET within 3 to 6 months.
             However, EPA did not require Missouri to update STORET
             as a grant condition. As a result, STORET did not contain
             complete information on Missouri's water quality.



CONCLUSION   Missouri needs to make sure that its water quality reports
             contain as accurate information as possible, or risk
             contributing to inadequate or inappropriate decisions or
             activities to control water pollution. Without accurate
             reports, Missouri may not take timely action to identify
             impaired waters and establish maximum pollutant loads into

                                                   E1HWF7-07-0023-8100080
                       23
                                 Missouri’s Water Quality Standards and Monitoring

                  these waters. EPA and Congress rely on information from
                  state water quality reports to identify where the nation
                  needs to focus pollution control resources. As an example,
                  the current emphasis on nonpoint source pollution control
                  came from information in state water quality reports that
                  nonpoint source pollution had become more of a problem
                  than point source pollution.



RECOMMENDATIONS   We recommend that the Regional Administrator:

                  4.1        Request that Missouri provide complete and
                             accurate reports as an element of its monitoring
                             work plan. Request Missouri include water
                             assessments consistent with EPA water quality
                             assessment report guidelines.

                  4.2        Work with Missouri to implement internal
                             control procedures to ensure that water quality
                             reports are complete and accurate, and retain
                             documentation to support the reports.

                  4.3        Require Missouri to document the impaired
                             waters excluded from the impaired waterbody
                             list and provide adequate justification. Request
                             Missouri to plan testing to address information
                             gaps where insufficient information exists to
                             conclude if a waterbody should be included on
                             its impaired waterbody list.

                  4.4        Request that Missouri provide for data storage,
                             management, and sharing as an element of its
                             monitoring work plan.

                  4.5        Work with Missouri to implement internal
                             controls to ensure that its information systems
                             are complete and accurate. Provide technical
                             assistance to prompt Missouri to enter
                             information into STORET.

                                                        E1HWF7-07-0023-8100080
                            24
                                    Missouri’s Water Quality Standards and Monitoring

AUDITEE COMMENTS     Region 7 generally agreed with the findings and
AND OIG EVALUATION   recommendations. The Region provided comments to
                     clarify portions of the report, and we have incorporated
                     these comments and modified the report as appropriate.




                                                           E1HWF7-07-0023-8100080
                               25
                                  Missouri’s Water Quality Standards and Monitoring

                    CHAPTER 5
  REGION 7 SHOULD IMPROVE OVERSIGHT AND TECHNICAL
  ASSISTANCE FOR MISSOURI'S WATER QUALITY PROGRAMS

                   Region 7 could have provided better technical assistance
                   and oversight to ensure that Missouri had an adequate basis
                   for its water quality programs. Region 7 did not fulfill its
                   responsibility to approve Missouri's water quality standards;
                   however, the Region recognized its responsibility and
                   committed to timely approval actions in its fiscal 1998/1999
                   regional management agreement. The Region did not
                   require as a grant condition that Missouri use available
                   water quality management tools. Also, the Region
                   approved Missouri's impaired waterbody list without
                   confirming the list was complete. As a result, the Region
                   could not be sure Missouri protected its water quality as
                   envisioned by the Clean Water Act.



BACKGROUND         The Clean Water Act requires EPA to review water quality
                   standards adopted by a state and approve the standards if
                   they are consistent with the Act. If any standards are not
                   consistent with the Act, EPA must notify the state within 90
                   days of receipt of the state adopted standards and specify
                   required changes. If the state does not adopt the changes
                   within 90 days of the notification, EPA is required to
                   promptly take action to promulgate the requested changes.

                   EPA's Section 106 and 604(b) Grant Guidance was
                   intended to be a tool for the regions to work with the states
                   to improve water quality testing and assessing. The
                   guidance recommends that each state develop a monitoring
                   strategy for gathering water quality information to support
                   state activities to develop water quality standards, measure
                   progress in improving water quality, and develop the
                   impaired waterbody list.



                                                         E1HWF7-07-0023-8100080
                             26
                                    Missouri’s Water Quality Standards and Monitoring

                     The Clean Water Act requires that EPA review and approve
                     or disapprove a state's impaired waterbody list. If EPA
                     disapproves the list, EPA is responsible for identifying the
                     waters that should be included in the list. CFR part 130.7,
                     Total maximum daily loads (TMDL) and individual water
                     quality-based effluent limitations, requires each state to
                     provide to EPA documentation to support its decision to list
                     or not list its waters.



REGION 7 DID NOT     Region 7 did not timely approve Missouri's water quality
APPROVE MISSOURI'S   standards. Region 7 did not approve Missouri’s 1994 water
WATER QUALITY        quality standards dated March 30, 1994, nor the 1996 water
STANDARDS            quality standards dated October 31, 1996. Region 7
                     personnel said several factors contributed to their not
                     approving Missouri’s water quality standards, including
                     uncertainty over applicable EPA criteria and inadequate
                     resources to review state water quality standards. Region 7
                     recognized its need to approve state standards as a fiscal
                     1997 Federal Managers’ Financial Integrity Act area of
                     concern, and committed in its fiscal 1998/1999 regional
                     management agreement to complete timely approval
                     actions.

                     Region 7 reviewed but neither approved nor disapproved
                     Missouri 1994 water quality standards, and had not
                     reviewed Missouri’s 1996 standards. Region 7 provided
                     Missouri substantive deficiency comments in a letter dated
                     November 29, 1993, for the draft 1994 standards. Missouri
                     made some changes to its standards, but did not address all
                     of the Region's comments. For example, Missouri adopted
                     “fishable” criteria for mercury at 0.5 micrograms per liter,
                     but EPA recommended criteria of 0.012 micrograms per
                     liter. Missouri said that quantities of mercury were higher
                     in its water from natural sources so it was not practical to
                     adopt EPA criteria. However, Region 7 said that Missouri
                     would need to adopt the EPA criteria universally, and
                     establish site-specific criteria for individual waters with

                                                           E1HWF7-07-0023-8100080
                               27
               Missouri’s Water Quality Standards and Monitoring

naturally higher levels. Missouri did not implement the
Region's recommendations, and Region 7 did not
disapprove Missouri’s criteria that were less protective than
EPA criteria. As a result, Missouri is not adequately
protecting its water uses.

The Region did not require Missouri to provide the required
studies to support uses that did not meet the “swimmable”
use classification. CFR 131.20, State Review and revision
of water quality standards, requires that states submit these
studies to the Region for review and approval along with its
revised water quality standards. In 1993, Region 7
informed Missouri that these studies were needed.
However, Missouri did not conduct the studies. Again,
Region 7 did not disapprove Missouri’s 1994 and 1996
water use classifications that were not supported by the
required studies. As a result, Missouri did not protect the
waterbodies for bacteria that can be harmful to human
health.

In 1993, Region 7 told Missouri that it should not remove
use classifications for “existing uses.” In its 1996 standards,
Missouri removed drinking water supply use classifications
for 15 lakes, of a total of 455 lakes, that may have been
“existing.” Federal regulations do not permit the removal of
a water use classification if it was “existing” or actually
achieved on or after November 28, 1975. States have
raised an issue with EPA that common sense would support
allowing the removal of the use classification for a
waterbody that likely will never again be used for drinking
water supply. Region 7, in consultation with Office of
Water, should have determined whether to allow Missouri
to remove the uses or promulgate standards for Missouri for
these waterbodies.

Region 7 personnel said they were uncertain about
applicable criteria because Office of Water did not maintain
a comprehensive list of the latest EPA-published criteria.
New scientific knowledge about the effect of pollutants on

                                      E1HWF7-07-0023-8100080
          28
                                  Missouri’s Water Quality Standards and Monitoring

                   water quality contributed to the confusion over which
                   criteria should be applied. This confusion was not unique to
                   Region 7 as Region 8 developed a guide for its states to use
                   that listed EPA-published criteria.

                   In addition, Regional officials said they had inadequate
                   resources to timely approve state water quality standards.
                   Also, the water quality standards coordinator was assigned
                   additional duties which interfered with the timely review of
                   state standards. Region 7 assigned one person to review the
                   standards for all four states until January 1997, when the
                   Region assigned a second person. However, Regional
                   officials still did not believe the resources were adequate.
                   We surveyed Regions 3, 5, 6, and 8 and found all were
                   current in their reviews. Region 3 assigned one position to
                   review all state water quality standards with assistance from
                   the project officers for each state. Regions 5, 6, and 8
                   assigned between 0.3 and 1.0 positions per state.



REGION 7 DID NOT   The Region did not require as a grant condition that
REQUIRE MISSOURI   Missouri use available water quality management tools to
TO USE WATER       plan its water quality monitoring. The Region did not
QUALITY            ensure that Missouri's planning process addressed all
MANAGEMENT TOOLS   elements of EPA's grant guidance. However, Region 7 is
                   working with Missouri to update its data quality
                   management plan. As a result, Region 7 provided funding
                   for Missouri’s monitoring program without ensuring
                   Missouri planned to obtain all the water quality information
                   it needed to support its water quality programs.

                   The Region did not ensure that Missouri's planning process
                   addressed all elements of EPA's Section 106 and 604(b)
                   Grant Guidance. The Region did not require that Missouri
                   submit a monitoring strategy or work plans with its grant
                   applications. However, in its fiscal 1998/1999 regional
                   management agreement, the Region recognized the
                   importance of the monitoring strategies, and requested

                                                         E1HWF7-07-0023-8100080
                             29
               Missouri’s Water Quality Standards and Monitoring

Office of Water reissue and reinforce its water quality
monitoring strategy guidance; i.e., EPA's Section 106 and
604(b) Grant Guidance.

Region 7 recognized the need for states to develop and
update comprehensive water quality management planning
processes, and identified this need as a Federal Managers’
Financial Integrity Act area of concern for fiscal 1997. The
Region hired a water quality specialist to work with the
states to develop and update their planning processes.

In its fiscal 1998/1999 regional management agreement,
Region 7 stated it had limited success with states adopting
national core performance measures. For example, for fiscal
1998, Missouri agreed to provide water quality assessment
information that relates to core measures, such as
“percentage of assessed waterbodies that support use
designations,” but did not establish specific targets.
Missouri did not commit to Office of Water's core state
reporting requirements for fiscal 1998, such as describing
how its statewide monitoring program conforms with EPA's
Section 106 and 604(b) Grant Guidance to achieve a
comprehensive assessment of water quality. The Region
said it planned to continue to persuade states to adopt
national core measures in fiscal 1999 work plan agreements.
Region 7 staff have begun identifying elements of Missouri's
strategic planning documents that tie to the national core
measures.

Region 7 had not required as a condition of funding that
Missouri have a current data quality management plan.
Missouri and Region 7 recognized that Missouri's quality
management plan was outdated, and the Region had been
working with Missouri since January 1996 to update its
quality management plan. However, the Region did not
require Missouri to commit to developing the plan in its
monitoring work plan as recommended by EPA's Section
106 and 604(b) Grant Guidance.



                                      E1HWF7-07-0023-8100080
          30
                                     Missouri’s Water Quality Standards and Monitoring

REGION 7 APPROVED     Region 7 approved Missouri's 1996 impaired waterbody list
MISSOURI’S IMPAIRED   without ensuring the list was complete. Region 7 should
WATERBODY LIST        have determined which impaired waterbodies were included
WITHOUT ENSURING      in the water quality assessment report but excluded from the
IT WAS COMPLETE       impaired waterbody list in order to meet its responsibility to
                      ensure the list was complete and fully approvable. Without
                      adequate procedures to confirm that the 303(d) list is
                      complete, Missouri and EPA may be vulnerable to having
                      the courts set their priorities for them in response to
                      lawsuits. EPA and other states have been sued for
                      inadequate 303(d) lists. Additionally, Missouri may not
                      take timely action to identify impaired waters and establish
                      maximum pollutant loads into these waters. Region 7 said,
                      for future impaired waterbody lists, the Region will require
                      and review supporting information, including a list of
                      waterbodies that make up the summary totals Missouri
                      reports in the water quality assessment report.



CONCLUSION            Region 7 could have provided better technical assistance
                      and oversight to ensure that Missouri had an adequate basis
                      for its water quality programs. Region 7 delayed taking
                      action on Missouri's water quality standards, and did not
                      fulfill its responsibility to ensure Missouri's use
                      classifications and criteria protect water quality at the
                      national level. Region 7 should ensure that Missouri sets
                      standards that are scientifically defensible and that protect
                      the people and wildlife that use the water.

                      By not requiring that Missouri include the recommended
                      elements in its monitoring work plans, Region 7 sent the
                      message that continued funding was not dependent on an
                      effective water quality monitoring program. Region 7
                      should better tie funding to performance by requiring that
                      Missouri include the recommended elements in its grant
                      work plans.




                                                            E1HWF7-07-0023-8100080
                                31
                                    Missouri’s Water Quality Standards and Monitoring

RECOMMENDATIONS      We recommend that the Regional Administrator:

                     5.1        Evaluate the functions currently performed by
                                the water quality standards coordinators.
                                Determine how many employees are needed to
                                accomplish the functions, and the most efficient
                                and effective assignment of these functions.

                     5.2        Prioritize the timely review of and prompt action
                                on state water quality standards.

                     5.3        Use the elements of the grant monitoring work
                                plan as a basis for a review of Missouri's water
                                quality testing and assessing program. Identify
                                where the Region can best provide technical
                                assistance to ensure that Missouri's assessments
                                will achieve EPA's target of comprehensive and
                                consistent water quality assessments.

                     5.4        Require and review supporting information for
                                Missouri's impaired waterbody list, including a
                                reconciliation to the water quality assessment
                                report.



AUDITEE COMMENTS     Region 7 generally agreed with the findings and
AND OIG EVALUATION   recommendations. The Region provided comments to
                     clarify portions of the report, and we have incorporated
                     these comments and modified the report as appropriate.




                                                           E1HWF7-07-0023-8100080
                               32
                                                       Missouri’s Water Quality Standards and Monitoring
                                            EXHIBIT 1

                             SCOPE AND METHODOLOGY


We reviewed Missouri's internal controls over water quality standards setting, monitoring, and
reporting. We analyzed internal controls to assure compliance with federal statutory and
regulatory criteria and with the State's policies and procedures. We determined whether Region
7's Federal Managers’ Financial Integrity Act reports disclosed any material weaknesses
applicable to the audit. Our audit disclosed several areas needing improvements that are
discussed in Chapters 2 - 5.

To determine Missouri’s process for establishing water quality standards, we interviewed
Missouri’s Water Pollution Control Program staff and flowcharted their internal processes for
developing use classifications and establishing water criteria. We reviewed Missouri’s water
quality standards as adopted in its Rules of Department of Natural Resources, Division 20 -
Clean Water Commission, Chapter 7 - Water Quality, and reviewed policy and guidance papers
to determine if the process for establishing water quality standards was in compliance with the
Clean Water Act and applicable federal regulations.

To review Missouri’s water monitoring program, we interviewed staff members of the Planning
Section, Water Pollution Control Program and flowcharted their process for testing and assessing
water quality. We also flowcharted the process for water quality assessment reporting and
impaired waters listing. We observed a staff member of the Water Pollution Control Program
while he conducted inspections of wastewater treatment facilities and their receiving streams.
During these site visits, we observed the work performed and discussed the process for
monitoring water with the staff member. We reviewed EPA guidance for designing monitoring
programs and guidance for reporting to EPA the results of testing and assessing states’ waters.

We selected a sample of 60 waterbodies to evaluate the process of setting use classifications,
establishing water criteria, testing and assessing the waterbodies, recording results in the State's
Water Quality Information System database, and reporting test results. We selected the sample
from the list of waterbodies and use classifications in Missouri's 1996 water quality standards.
We judgmentally selected the waterbodies to obtain a mixture of geographic location, size, and
water quality. We selected waters assessed as both impaired and unimpaired.

We selected a sample of 30 National Pollution Discharge Elimination System permits issued by
Missouri to determine if any permittees discharged pollutants for which Missouri did not have
water quality criteria. We judgmentally selected these permits to include both large and small
dischargers, and dischargers in a variety of industries.

                                                                              E1HWF7-07-0023-8100080
                                                  33
To determine if Region 7 implemented effective procedures to approve state implementation plans
and water quality standards, and to evaluate Missouri's water quality standards setting, testing,
assessing and reporting, we interviewed Region officials to determine how they ensured
compliance with the Clean Water Act. We determined their process for reviewing states’ water
quality standards, water quality assessment report, and impaired waterbody list. We also
reviewed correspondence between the Region and Missouri. We reviewed the accuracy and
reliability of the state water quality information that EPA and Missouri use as a basis for
measuring performance in water pollution prevention and control.




                                                                        E1HWF7-07-0023-8100080
                                               34
                                                               Missouri’s Water Quality Standards and Monitoring
                              EXHIBIT 2
LESS RESTRICTIVE CRITERIA IN MISSOURI’S 1996 WATER QUALITY STANDARDS

          Pollutant             “Priority”                 Description                    Missouri Explanation
                                  Toxic
1.    1,3 Dichloropropylene     Yes          No criteria for drinking water supply or    No explanation, agreed to
                                             fish consumption                            include in next standards
                                                                                         revision

2.    Selenium                  Yes          No short term criteria for “fishable”       No explanation, agreed to
                                                                                         include in next standards
                                                                                         revision

3.    Pentachlorophenol         Yes          No short term criteria for “fishable”       No explanation, agreed to
                                                                                         include in next standards
                                                                                         revision

4.    Chlorpyrifos              No           No short term criteria for “fishable”       No explanation, agreed to
                                                                                         include in next standards
                                                                                         revision

5.    Arsenic                   Yes          No criteria for fish consumption or         Natural condition prevented
                                             short term criteria for “fishable”          adopting the EPA criteria

6.    Mercury                   Yes          No criteria for fish consumption; less      Natural condition prevented
                                             restrictive long term criteria for          adopting the EPA criteria
                                             “fishable”

7.    Aluminum                  No           No long term criteria for “fishable”        Natural condition prevented
                                                                                         adopting the EPA criteria

8.    Fecal coliform            No           No criteria for recreation such as          Too expensive to implement
                                             boating, wading, and fishing

9.    Dichlorodifluoromethane   No           No criteria for drinking water supply       Missouri was unaware of
                                                                                         EPA criteria

10.   N-nitros-pyrroliden       No           No criteria for drinking water supply       Missouri was unaware of
                                                                                         EPA criteria

11.   Parathion                 No           No short term and less restrictive long     Criteria taken from outdated
                                             term criteria for “fishable”                EPA guidance

12.   4, 4', DDT                Yes          No short or long term criteria for          No explanation
                                             “fishable,” less restrictive criteria for
                                             drinking water supply and fish
                                             consumption

13.   4,4' DDE                  Yes          Less restrictive criteria for drinking      No explanation
                                             water supply and fish consumption

14.   4,4' DDD                  Yes          Less restrictive criteria for drinking      No explanation
                                             water supply and fish consumption


                                                                                           E1HWF7-07-0023-8100080
                                                          35
                          Missouri’s Water Quality Standards and Monitoring

              EXHIBIT 3

POLLUTANTS LIMITED IN PERMITS BUT
 NOT IN WATER QUALITY STANDARDS



1.      Bromide

2.      Ethylene glycol dinitrate

3.      Molybdenum

4.      Nitroglycerine

5.      Phosphorus

6.      Tin

7.      Titanium

8.      Total organic halogens

9.      Vandium




                                                 E1HWF7-07-0023-8100080
                     36
           Missouri’s Water Quality Standards and Monitoring


APPENDIX I
EPA COMMENTS




                                  E1HWF7-07-0023-8100080
      37
                                                      Missouri’s Water Quality Standards and Monitoring


                                     APPENDIX II
                                      DISTRIBUTION


Office of Inspector General

   Inspector General (2410)
   Deputy Assistant Inspector General for Internal Audits (2421)
   Headquarters Audit Liaison (2421)
   Divisional Inspectors General for Audit

EPA Headquarters Office

   Assistant Administrator for Water (4101)
   Agency Followup Official (2710)
   Agency Followup Coordinator (3304)
   Associate Administrator for Congressional and Legislative Affairs (1301)
   Associate Administrator for Communications, Education, and Public Affairs (1701)
   Associate Administrator for Regional Operations and State/Local Relations (1501)
   Headquarters Library (3401)

EPA Region 7

   Director, Water, Wetlands, and Pesticides Division
   Director, Office of External Programs
   Audit Followup Coordinator

Regional Offices

   Regional Administrators

Missouri Department of Natural Resources

   Director
   Director of Staff, Water Pollution Control Program
   Planning Section Chief, Water Pollution Control Program




                                                                             E1HWF7-07-0023-8100080
                                                 42
